No. 20-1229
In the

Supreme Court of the United States
JAMES W. ROBERTSON, SR.,
Petitioner,
v.
INTRATEK COMPUTER, INCORPORATED,
Respondent.
On Petition for a Writ of Certiorari to the To the
United States Court of A ppeals For the Fifth Circuit

REPLY TO BRIEF IN OPPOSITION
Colin Walsh
Wiley Walsh, P.C.
1011 San Jacinto Boulevard,
Suite 401
Austin, Texas 78701
(512) 271-5527

Robert J. Wiley
Counsel of Record
Austin Campbell
Rob Wiley, P.C.
2613 Thomas Avenue
Dallas, Texas 75204
(214) 528-6500
rwiley@robwiley.com

Counsel for Petitioner

305953

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
A. The Questions Presented were raised below . . . 1
1.

Petitioner clearly raised the issue
below of whether Congress intended
to prohibit enforcement of mandatory
employment arbitration agreements
in 41 U.S.C. § 4712 . . . . . . . . . . . . . . . . . . . . . 1

2.

Petitioner also clearly raised the issue
below of whether arbitration was
consistent with the administrative
scheme set up by Congress under
§ 4712 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

3.

T he r e i s a d i f fe r enc e b et we en
underlying statutory purpose and
the effect of a statute’s structure
a nd sequenc i ng. Pet it ioner ha s
not r a i s e d a n i s sue r e g a r d i ng
the underlying statutory purpose  . . . . . . . . 7

B. Because of the potentially significant impact
of mandatory arbitration on the ability of
executive agencies to enforce orders through
§ 4712’s administrative scheme, the United
States has a strong and acute interest in these
issues and its views should be requested  . . . . . . 8

ii
Table of Contents
Page
C. This case presents important questions of
federal law that should be settled by this
Court because the answers will shape how
Congress drafts legislation and executive
agencies enforce administrative orders . . . . . . .10
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

iii
TABLE OF CITED AUTHORITIES
Page
Cases:
CompuCredit Corp. v. Greenwood,
565 U.S. 95 (2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 8
Daly v. Citigroup Inc.,
939 F.3d 415 (2d Cir. 2019) . . . . . . . . . . . . . . . . . . . . . . 8
Statutes and Other Authorities:
41 U.S.C. § 4712  . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
41 U.S.C. § 4712(c)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 4, 5
41 U.S.C. § 4712(c)(7) . . . . . . . . . . . . . . . . . . . . . . . 2, 3, 4, 6
41 U.S.C. § 4712(c)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Bloomberg Government, Turn Opportunities into
Action, BGOV200 – Federal Industry Leaders
2020, available for download at https://about.
bgov.com/reports/bgov-200-federal-industryleaders-2021/?bbgsum-cta=DG-WS-BGOVGC-H177314 (last visited July 13, 2021) . . . . . . . . . . . 9
Press Release, Dep’t of Justice, Justice Department
Recovers over $3 Billion from False Claims Act
Cases in Fiscal Year 2019 (Jan. 9, 2020), https://
www.justice.gov/opa/pr/justice-departmentrecovers-over-3-billion-false-claims-act-casesfiscal-year-2019 (last visited July 13, 2021) . . . . . . . . 9

iv
Cited Authorities
Page
Press Release, Dep’t of Justice, Justice Department
Recovers Over $2.2 Billion from False Claims Act
Cases in Fiscal Year 2020 (Jan. 14, 2021), https://
www.justice.gov/opa/pr/justice-departmentrecovers-over-22-billion-false-claims-act-casesfiscal-year-2020 (last visited July 13, 2021) . . . . . . . . 9
S. Ct. R. 10(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

1
reply to brief in opposition
Respondent’s Brief in Opposition erroneously argues
that Petitioner has not preserved the Questions Presented
and wholly fails to address Petitioner’s suggestion that
this Court should invite the Solicitor General to express
the views of the United States on this important issue.
As shown below, Petitioner has, in fact, preserved the
Questions Presented. Further, because the Fifth Circuit’s
ruling would disrupt the administrative scheme set up
by Congress for executive agencies to enforce orders
issued through their administrative processes, this Court
should invite the Solicitor General to express the views
of the Unites States. Finally, Respondent uses the exact
same waiver argument to claim there is no clear record
and that this Court should not consider this case absent
a circuit split, but ignores the actual basis of the petition
under Rule 10(c).
A. The Questions Presented were raised below.
Respondent argues that “Petitioner raises the bulk
of his arguments for the first time before this Court.”
BIO 1. That is simply not the case.
1.

Petitioner clearly raised the issue below
of whether Congress intended to prohibit
enforcement of mandator y employment
arbitration agreements in 41 U.S.C. § 4712.

Contrary to Respondent’s brief, Petitioner raised at
both the district court and the appellate court the issue
of whether Congress intended to prohibit enforcement of
mandatory arbitration agreements. Indeed, Petitioner

2
first did so in his response to Respondent’s motion to
compel arbitration.
In that response, Petitioner pointed out that “41
U.S.C. § 4712(c)(7) explicitly prohibits the waiver of any
right as a condition of employment,” and that the right
to a de novo federal jury trial is “not waivable by any
agreement or condition of employment.” D. Ct. Dkt.
14 at 2. In Petitioner’s objections to the Magistrate’s
recommendation, Petitioner discussed this issue at
length, addressing the plain text of the statute, legislative
history, and distinguishing the cases relied upon by the
Magistrate. D. Ct. Dkt. 18 at 10–17. Those same positions
were raised before the appellate court as well, and often
in a very similar fashion. Compare Appellant’s Br., 5th
Cir. Dkt. 515285367 at 14–21, with Plaintiff’s Objections,
D. Ct. Dkt. 10–17.
Here, the petition for certiorari again makes those
same arguments. The petition goes through the terms and
sequencing of § 4712: “The right and remedy of going to
federal court if relief is denied is consistent with the text,
structure, and sequencing of the rest of the statute.” Pet.
19. In Petitioner’s reply to the Fifth Circuit, Petitioner
made the same argument: “Here, the NDAA’s plain
language (including the terms used and the statute’s
sequencing), along with the legislative history establish
that Congress intended to prohibit arbitration agreements
required as a condition of employment.” Appellant’s Reply
Br., 5th Cir. Dkt. 515285367 at 10.
Both the Fifth Circuit briefing and the instant petition
raise the same issue regarding the placement of the
right and remedy of a federal jury trial within the same

3
subsection as the nonwaiver provision. The Fifth Circuit
brief states:
The “exhaustion of remedies” subsection,
41 U.S.C. § 4712(c)(2), expressly provides
complainants the right and remedy of a de
novo federal jury trial . . . . Under subsection
(c)(7), that right and remedy of a federal jury
trial is not waivable by any kind of mandatory
employment agreement . . . .
Appellant’s Br., 5th Cir. Dkt. 515285367 at 34–35. The
petition before this Court states:
Subsection (c) then provides all of the remedies
available. It is explicitly titled “Remedy and
Enforcement Authority.” Id. at § 4712(c).
Contrary to the Fifth Circuit’s restricted
reading, this section provides for much more
than just the exhaustion of administrative
remedies. Subsection (c), among other things,
provides for (1) the types of damages and relief
that the executive agency can order, (2) when
exhaustion of administrative remedies occurs,
(3) a de novo private cause of action in federal
court (including the ability to request a jury), (4)
making IG determinations and agency orders
admissible, (5) district court enforcement of
agency orders, (6) setting the burden of proof
as contributing factor, and (7) appellate court
review of agency orders. Id. at § 4712(c). After
providing for all of those things, only then does
the statute, in subsection (c)(7), prohibit waiver
of the rights and remedies just provided for in
that section. Id.

4
Pet. 23 (emphasis in original). Sometimes, the language
between the Appellate briefing and the petition is even
quite similar. For example, the petition states:
Thus, the question then becomes whether or not
a federal jury trial is a right or remedy provided
for in the statute. If it is a right or remedy
provided for in the statute, then it cannot be
waived by “any agreement, policy, form, or
condition of employment” under the nonwaiver
provision of § 4712(c).
Pet. 18. In Petitioner’s reply brief to the Fifth Circuit,
Petitioner made the same point:
The primary issue in determining the scope of
the NDAA’s nonwaiver provision is whether or
not the jury trial expressly provided for by the
statute is a judicial remedy. If it is a “remedy
provided for,” the nonwaiver provision applies
to mandatory arbitration agreements because
it prohibits waiver as a condition of employment
of any remedies provided for in the statute. See
41 U.S.C. § 4712(c)(7) . . . .
Appellant’s Reply Br., 5th Cir. Dkt. 515285367 at 15.
Therefore, based on all of the above, Petitioner clearly
raised the issue of whether Congress intended to prohibit
mandatory arbitration under § 4712.

5
2.

Petitioner also clearly raised the issue below
of whether arbitration was consistent with
the administrative scheme set up by Congress
under § 4712.

The first Question Presented—regarding whether the
administrative scheme is consistent with arbitration—was
also raised in both the district court and the Fifth Circuit.
Specifically, in Petitioner’s objections to the Magistrate’s
recommendation, Petitioner expressly discussed the
statutory scheme and how it differed from other statutory
schemes like the Credit Reporting Organization Act and
the Age Discrimination in Employment Act. Plaintiff’s
Objections, D. Ct. Dkt. 15–16. At the Fifth Circuit,
Petitioner did the same thing:
Here, though, the statute at issue expressly
creates the right and remedy of a federal jury
trial for violations of the statute. 41 U.S.C.
§ 4712(c). The statute expressly creates federal
question jurisdiction for a lawsuit, creates
deadlines for filing the lawsuit, administrative
remedies that must be engaged in prior to the
right and remedy of a federal jury trial, and
sets the burden of proof as contributing factor.
Id. Then after doing all of that, the statute
explicitly says, “rights or remedies provided
for in this section may not be waived by any
agreement . . . or condition of employment.”
Id. at (c)(7). Because none of those things are
present in the CROA section examined by
CompuCredit, that case does not apply.
5th Cir. Dkt. 515189942 at 41. In the Fifth Circuit brief,
Petitioner then expressly discusses how other statutory

6
schemes like those of the ADEA and the Employee
Polygraph Protection Act are consistent with arbitration
because of their encouragement of alternative dispute
resolution methods, flexible approach to remedies, and
creation of concurrent jurisdiction. Id. at 42–45. Under
§ 4712, there is no such flexibility:
Here, none of the factors that would encourage
a “flexible” approach to resolution are present.
Section 4712 does not mention informal dispute
resolution methods or establish concurrent
jurisdiction. See 41 U.S.C. § 4712. Instead, the
statute lays out a very specific scheme of rights
and remedies that includes federal question
jurisdiction, deadlines for filing the federal
lawsuit, administrative remedies, the right and
remedy of a federal jury trial, and setting the
burden of proof as contributing factor, a much
lower standard of proof than most retaliation
statutes. Id. Unlike the ADEA, nothing in
§ 4712 shows any preference for informal or
out-of-court resolution, and nothing indicates
flexibility of rights or remedies. Id. In fact
the plain text conclusively shows that Congress
did not intend flexibility of rights or remedies
because the plain language explicitly prohibits
waiver of any of those rights or remedies. See
41 U.S.C. § 4712(c)(7).
Id. at 43–44.
That is the same issue presented in the petition
currently before this Court:

7
Reading the statute as a whole, it is clear that
prohibiting an employee from going to court
compromises the administrative scheme set up
by Congress. That is because if the nonwaiver
provision stating that “the rights and remedies
provided in this section” means only “some”
rights and remedies may not be waived, then
the statue allows for parallel proceedings. But
if the nonwaiver provision prohibiting waiver
of “the rights and remedies provided in this
section” means “all” rights and remedies
provided in this section, then the statutory
enforcement scheme is the only scheme that
may be followed and parallel proceedings with
potentially conflicting rulings would not occur.
Pet. 7. Then Petitioner, just as he did in the Fifth Circuit
briefing, goes through how § 4712’s scheme is different
from other administrative schemes and why that shows
arbitration is not consistent with § 4712. Id. at 7–14.
Therefore, Petitioner raised both Questions Presented
below.
3.

There is a difference between underlying
statutory purpose and the effect of a statute’s
structure and sequencing. Petitioner has not
raised an issue regarding the underlying
statutory purpose.

Respondent argues that Petitioner has waived his
argument concerning the impact of arbitration on § 4712’s
administrative scheme by plucking out of context a line
from the Fifth Circuit’s opinion stating that Petitioner
“hasn’t advanced any argument on statutory purpose

8
and thus has forfeited the issue.” Pet. App. 6a n.1. In
the context of the Fifth Circuit opinion, that statement
comes in a footnote discussing whether or not arbitration
can be prohibited based on an “inherent conflict” between
arbitration and the underlying purpose of a statute. Id.
(discussing Sotomayor’s concurrence in CompuCredit
Corp. v. Greenwood, 565 U.S. 95, 109 (2012)). That is not
what Petitioner is arguing.
Petitioner is not claiming that the underlying purpose
or motivation behind § 4712 inherently conflicts with
arbitration. It is clear that federal whistleblower statutes
can be amenable to arbitration. See, e.g., Daly v. Citigroup
Inc., 939 F.3d 415, 423 (2d Cir. 2019) (holding Dodd-Frank
whistleblower claims arbitrable). Instead, Petitioner
is arguing that based on the unambiguous statutory
language, arbitration disrupts the statutory scheme set
up by Congress to address and remedy whistleblower
retaliation under § 4712. Arbitration takes a wrench to
the administrative scheme and would create unnecessary
confusion and potentially conflicting rulings. That, in
conjunction with the statute’s explicit provision of the
right and remedy of a federal jury trial and the nonwaiver
provision prohibiting waiver of rights and remedies, shows
Congress meant to prohibit mandatory arbitration.
B. Because of the potentially significant impact of
mandatory arbitration on the ability of executive
agencies to enforce orders through § 4712’s
administrative scheme, the United States has a
strong and acute interest in these issues and its
views should be requested.
Respondent wrongly diminishes the importance of the
Questions Presented. Whistleblowers play a crucial role for

9
the federal government in exposing fraud, waste, abuse,
and mismanagement of government money, programs,
and services. As former Assistant Attorney General Jody
Hunt stated in 2019, “Whistleblowers continue to play a
critical role identifying new and evolving fraud schemes
that might otherwise remain undetected.” See Press
Release, Dep’t of Justice, Justice Department Recovers
over $3 Billion from False Claims Act Cases in Fiscal
Year 2019 (Jan. 9, 2020), https://www.justice.gov/opa/pr/
justice-department-recovers-over-3-billion-false-claimsact-cases-fiscal-year-2019 (last visited July 13, 2021). Mr.
Hunt explained that “[t]axpayers have benefited greatly
from these individuals who are often required to make
substantial sacrifices to bring these schemes to light.” Id.
Indeed, since 1986, the federal government has
recovered over $64 billion dollars under the False Claims
Act alone. See Press Release, Dep’t of Justice, Justice
Department Recovers Over $2.2 Billion from False Claims
Act Cases in Fiscal Year 2020 (Jan. 14, 2021), https://www.
justice.gov/opa/pr/justice-department-recovers-over-22billion-false-claims-act-cases-fiscal-year-2020 (last visited
July 13, 2021).
As the amount of money the federal government
spends on federal contractors increases, whistleblowers’
ability to expose fraud and waste will become even more
important. According to Bloomberg Government’s
BGOV200 Federal Industry Leader rankings, which
ranks the top 200 federal contractors, the United States
Government spent an “unprecedented” $682 billion dollars
on federal contractors in fiscal year 2020. See Bloomberg
Government, Turn Opportunities into Action, BGOV200
– Federal Industry Leaders 2020, page 2 (2020), available

10
for download at https://about.bgov.com/reports/bgov200-federal-industry-leaders-2021/?bbgsum-cta=DGWS-BGOV-GC-H177314 (last visited July 13, 2021).
According to that same report, 65 percent of governmental
obligations were won by the top 200 companies. Id. at 5.
“Looking forward to next year’s BGOV200, fiscal year
2021 looks to be another year of exceptionally high federal
contract spending.” Id. at 6.
Thus, the government’s interest in ensuring that
potential whistleblowers have the necessary protections
and incentives to come forward is paramount. One way to
ensure the proper protections and incentives is by allowing
full enforcement of the laws Congress has provided for
them. As explained in detail in the petition, allowing
enforcement of mandatory employment arbitration
agreements contrary to the statutory text potentially
severely disrupts the administrative scheme executive
agencies rely on to enforce whistleblower protections for
federal contractors. Therefore, this Court should invite
the Solicitor General to express the views of the United
States on this matter of utmost importance.
C. This case presents important questions of federal
law that should be settled by this Court because the
answers will shape how Congress drafts legislation
and executive agencies enforce administrative
orders.
Finally, Respondent claims that because there is no
circuit split, this Court should deny the petition and wait
for a case with a clearer record. BIO 13. But that ignores
Rule 10(c), which is the underlying basis for the Court to
grant certiorari here. S. Ct. R. 10(c). Indeed, this is just

11
Respondent’s waiver argument repackaged, since it is
premised on the idea that “the courts below had no cause
to consider whether arbitration disrupts a Congressionally
designed scheme.” BIO 13–14. The entire basis of
Respondent’s implication that the record below is cloudy
on the arbitration issue relies on this Court ignoring all of
the evidence in section A, supra, showing the Questions
Presented were raised below. See BIO 13–14.
Contrary to Respondent’ brief, the record on this issue
is clear and the relevant facts are undisputed. Pet. App.
2a–3a. Intratek conditioned Robertson’s employment on
signing a mandatory pre-dispute arbitration policy. Id.
If § 4712 prohibits enforcement of mandatory arbitration
agreements required as a condition of employment, then
Robertson’s whistleblower claims cannot be compelled to
arbitration. If § 4712 does not prohibit such agreements,
then his claims can be compelled to arbitration.
This is an important question of statutory construction
that the United States should express its views on and
that this Court should resolve now. Given the critical
importance of whistleblowers in exposing fraud, waste,
and abuse of government money, answering this question
either way will give whistleblowers full knowledge
and confidence in the legal protections, processes, and
consequences of their actions in revealing misconduct.
Deciding this question now either way will also provide
that same knowledge and confidence to executive agencies
who issue administrative orders under § 4712. This
question is important enough that there is no need to wait
for a split, which could discourage whistleblowers from
coming forward.

12
CONCLUSION
For the foregoing reasons and those stated in the
petition for writ of certiorari, this Court should grant the
petition. Further, this Court should invite the Solicitor
General at this stage to state the views of the United
States.
Respectfully submitted,
Colin Walsh
Robert J. Wiley
Wiley Walsh, P.C.
Counsel of Record
1011 San Jacinto Blvd.,
Austin Campbell
Suite 401
Rob Wiley, P.C.
Austin, Texas 78701
2613 Thomas Ave.
(512) 271-5527
Dallas, Texas 75204
(214) 528-6500
rwiley@robwiley.com
Counsel for Petitioner

